December 2007
Report No. EVAL-08-002

The FDIC’s Telework Program
                                                                                                                 Executive Summary
                                                                                                             Report No. EVAL-08-002
                                                                                                                      December 2007
                                        The FDIC’s Telework Program
                                        Results of Evaluation

                                        The FDIC has established a telework program that is consistent in most respects with applicable
                                        federal standards and guidelines and recognized best practices. In that regard, the FDIC’s
                                        policies and program elements compare favorably to telework guidance of 13 other federal
Background and Purpose of               agencies we reviewed. In OPM’s 2006 Federal Human Capital Survey, FDIC employees
Evaluation                              reported an overall satisfaction rate of 56.6 percent with the Corporation’s telework program
                                        compared to a rate of 21.8 percent government-wide.
Since October 2000, the Congress
has continued to express its desire     Reported participation in FDIC’s telework program grew from 20 percent in 2001 to 47 percent
for federal agencies to create viable   in 2006. In 2005, following a more restrictive definition of telework that defined qualifying
telework programs through a             frequencies, the OPM calculated the FDIC’s participation level to be at 4.56 percent in its 2006
number of legislative actions.          Status of Telework in the Federal Government report to the Congress. Further, the report showed
Telework programs allow                 that the FDIC’s employee participation level ranked 59th among 77 federal agencies. The FDIC
employees with appropriate work         has its own views about gauging the success of its telework program, other than the level of
projects to work at home or in other    participation, such as employees being able to utilize partial-day telework to attend appointments
approved work sites if they meet        or other non-work events in order to achieve a better work/life balance. Other issues bring into
telework program requirements and       question the reliability of the OPM statistics. For example, DOA noted that its time and
obtain approval from their              attendance reporting system is not configured to capture the type of telework data that OPM
supervisors.                            requires and, as a result, the FDIC under-reported telework participation information to OPM.
                                        Accordingly, it is unclear whether the FDIC has sufficiently reliable data to draw valid
The Office of Personnel                 conclusions regarding the extent of participation in its telework program. Finally, the FDIC
Management (OPM) and the                could better assess its program by conducting an evaluation of the program, consistent with
General Services Administration         corporate policy, and establishing measurable goals.
(GSA) have joint leadership roles
for the government-wide telework        The FDIC also needs to clarify the role that telework plays in its business continuity and
initiative. The two agencies            pandemic event plans and policies, and conduct tests to evaluate the viability of telework
provide services and resources to       arrangements under both scenarios. The FDIC reported to the OPM that the majority of FDIC
support and encourage telework,         employees are fully capable of sustaining operations while teleworking. However, the FDIC
including issuing guidance to           needs to do more to ensure that during an emergency, the Corporation would be fully functional
agencies in developing their            within the time frames prescribed by FEMA, or should a pandemic event occur, the Corporation
programs and procedures. In doing       has the ability to maintain uninterrupted operations for an extended period.
so, the OPM has incorporated
Federal Emergency Management            The FDIC received an award in 2006 for its innovative use of technology to support
Agency (FEMA) guidance for both         employees who teleworked. Further, the Corporation has issued extensive guidance on
continuity of operations and            protecting sensitive information and implemented controls to address OMB and GSA
pandemic preparedness.                  information security requirements associated with teleworking. Most notably, the FDIC
                                        requires two-factor authentication for user identification, and remote network sessions are
In May 2001, the FDIC introduced        encrypted. However, the FDIC needs to complete initiatives that will provide greater
a Telework Pilot Program to give        assurance that sensitive electronic information--stored on removable media and Personal
employees greater work/life             Digital Assistant devices often used for teleworking--is safeguarded from unauthorized
flexibility while continuing to meet    disclosure. The FDIC could also take steps to further protect data from unauthorized access
the Corporation's mission. The          during telework sessions on non-FDIC computers.
FDIC’s telework program became
permanent in May 2003.                  Finally, our report discusses two other matters for management’s information and
                                        consideration—the FDIC’s progress in developing and implementing a Pandemic Influenza
Our evaluation objective was to         Preparedness Plan and an opportunity for the FDIC to improve the efficiency of its
assess the extent to which the          administration of telework forms.
Corporation has established and
implemented a telework program that     Recommendations: We made recommendations to improve the quality and reliability of
is consistent with applicable federal   telework participation data; conduct an evaluation to determine whether the FDIC’s
standards and guidelines and            telework program is meeting management’s expectations; ensure that teleworkers are
recognized best practices.              prepared and supported during emergency situations and pandemic events; further enhance
                                        security over data used when teleworking; and improve the efficiency of telework forms.
To view the full report, go to          Management concurred or partially concurred with eight of our nine recommendations and
www.fdicig.gov/2008report.asp           offered a reasonable explanation for disagreeing with the remaining recommendation.
                             Table of Contents
                                                                          Page
EVALUATION OBJECTIVE AND APPROACH                                            1

BACKGROUND                                                                   2

EVALUATION RESULTS                                                           4

      Employee Participation in the FDIC’s Telework Program                  5

      Evaluation of the Telework Program                                     8

      Incorporating Telework Into Business Continuity and Pandemic          10
      Preparedness

      Security Control Requirements for Telework                            14

OTHER MATTERS                                                               20

      Influenza Pandemic Preparedness Planning                              20

      Submission of Telework Agreements and Home Safety Self-               21
      Certifications

Corporation Comments and OIG Evaluation                                     23

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                               25

APPENDIX II: Corporation Comments                                           28
APPENDIX III: Management Response to Recommendations                        34

TABLES

      Table 1: 2006 Corporation-Wide Participation in the FDIC’s             6
      Telework Program by Grade

      Table 2: Time-out Function Test Results                               17

FIGURES

      Figure 1: 2006 Headquarters Participation in the Telework Program      6




                                       i
           ACRONYM LIST

AIS    Automated Information Systems
BCP    Business Continuity Plan
CBA    Collective Bargaining Agreement
COOP   Continuity of Operations
CU     Corporate University
DIR    Division of Insurance and Research
DIT    Division of Information Technology
DOA    Division of Administration
DOF    Division of Finance
DRR    Division of Resolutions and Receiverships
DSC    Division of Supervision and Consumer Protection
EEP    Enterprise Encryption Project
EIM    Enterprise Information Management
ERT    Emergency Response Team
FEMA   Federal Emergency Management Agency
FMR    Federal Management Regulations
FPC    Federal Preparedness Circular
GSA    General Services Administration
IT     Information Technology
NTEU   National Treasury Employees Union
OCFO   Office of Chief Financial Officer
ODEO   Office of Diversity and Economic Opportunity
OERM   Office of Enterprise Risk Management
OIA    Office of International Affairs
OIG    Office of Inspector General
OMB    Office of Management and Budget
OO     Office of the Ombudsman
OPA    Office of Public Affairs
OPM    Office of Personnel Management
PDA    Personal Digital Assistant
PIPP   Pandemic Influenza Preparedness Plan
RCN    Remote Computing Network
USB    Universal Serial Bus




                    ii
Federal Deposit Insurance Corporation                                                          Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General



DATE:                                     December 6, 2007

MEMORANDUM TO:                            Arleas Upton Kea
                                          Director, Division of Administration

                                          Michael E. Bartell
                                          Chief Information Officer and Director,
                                          Division of Information Technology


                                          [Signed]
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Evaluations and Management


SUBJECT:                                  The FDIC’s Telework Program
                                          (Report No. EVAL-08-002)


This report presents the results of our subject evaluation. Telework, also referred to as
telecommuting or flexiplace, has gained widespread attention over the past decade in both the
public and private sectors as a human capital flexibility that offers a variety of potential benefits
to employers, employees, and society. The term telework refers to work that is performed at an
employee’s home or at a work location other than a traditional office. Congress and the
executive branch have shown interest in telework, primarily based upon the belief that its use
will benefit the federal government. Benefits of telework include reducing traffic congestion and
pollution, improving recruitment and retention of employees, increasing productivity, and
reducing the need for office space. Employees also can realize benefits from teleworking,
including reduced commuting time; lowered costs in areas such as transportation, parking, food,
and wardrobe; removal of barriers for those with disabilities who want to be part of the
workforce; and improvement in the quality of work life and morale accruing from the
opportunity to better balance work and family demands.


EVALUATION OBJECTIVE AND APPROACH
Our objective was to assess the extent to which the Corporation has established and implemented
a telework program that is consistent with applicable federal standards and guidelines and
recognized best practices.
To accomplish our objective, we:

•   Evaluated relevant FDIC policy and program elements against applicable government-wide
    guidance and recognized best practices,
•   Interviewed program officials about the status of the telework program,
•   Verified that the FDIC complied with the Office of Personnel Management (OPM) telework
    reporting requirements,
•   Performed analysis of telework participation information to identify trends and usage among
    divisions and offices,
•   Evaluated the efficiency of the FDIC’s administration of the telework program, and
•   Assessed the FDIC’s guidance and efforts to ensure adequate security over information used
    by employees when teleworking.

We also engaged the accounting firm of KPMG, LLP (KPMG) to assess the FDIC’s guidance
and efforts to ensure adequate security over information that is processed, stored, and transmitted
while teleworking. KPMG’s engagement primarily involved:

•   Evaluating the FDIC’s four methods of remote access,
•   Interviewing program officials about the status of initiatives intended to automate encryption
    of sensitive information stored on mobile computers and devices,
•   Verifying that the time-out function for remote access methods functioned properly, and
•   Assessing the FDIC’s progress in logging data extractions and erasing them when no longer
    needed.

Appendix I describes in detail the objective, scope, and methodology of this evaluation.


BACKGROUND
Through a number of legislative actions, Congress has indicated its desire that federal agencies:
create telework programs that establish program leadership; think broadly in setting eligibility
requirements; allow employees, if eligible, 1 to participate in telework; and track and report
telework program results. The most significant congressional action related to telework was the
October 2000 enactment of Section 359 of Public Law No.106-346, which mandates that each
executive branch agency establish a policy under which eligible employees may participate in
telework to the maximum extent possible without diminishing employee performance. The
legislation also requires agencies to designate telework coordinators who are responsible for
overseeing the implementation of telework programs and serving as points of contact.

The legislative framework also assigns responsibility for leading the government-wide telework
initiative to the OPM and the General Services Administration (GSA). Jointly, OPM and GSA
manage a federal Web site 2 for telework, which is designed to provide access for employees,
managers, and telework coordinators to a range of information related to telework, including

1
  An eligible employee is any satisfactorily performing employee of the agency whose job may typically be
performed at least one day per week by teleworking.
2
  The joint Web site can be found at www.telework.gov.

                                                        2
announcements, guides, laws, and available training. OPM has primarily provided expertise in
human resources issues and, in that regard, published A Guide to Telework in the Federal
Government, dated August 2006, to guide implementation of the program. OPM has also
determined that telework is an essential element in continuity of operations and pandemic 3
preparedness and incorporated Federal Emergency Management Agency (FEMA) guidance into
its guide. GSA has generally addressed technical, equipment, and telework center issues and
issued Federal Management Regulations (FMR) Bulletin 2007-B1 entitled, Information
Technology and Telecommunication Guidelines for Federal Telework and Other Alternative
Workplace Arrangement Programs, dated March 2007.

With regard to technical issues, the Office of Management and Budget (OMB) issued
Memorandum M-06-16, dated June 23, 2006, to the heads of federal departments and agencies
entitled, Protection of Sensitive Agency Information. OMB issued the memorandum in response
to several data security breaches. The memorandum recommends that the departments and
agencies implement a series of controls for safeguarding the remote access, transport, and
storage of sensitive information. Effective implementation of these controls becomes
particularly important to ensuring adequate information security as the Congress encourages
greater participation in telework programs.

Consistent with its legislative mandate to track and report on the status of telework programs, the
OPM requests telework data from all federal agencies by way of an Annual Telework Survey.
Jointly, OPM and GSA use the information to provide a yearly snapshot of the federal
government telework initiative that is published in an annual report to the Congress entitled, The
Status of Telework in the Federal Government (Annual Telework Status Report).

In its A Guide to Telework in the Federal Government, OPM defined telework as any
arrangement in which an employee regularly performs officially assigned duties at home or at
another work site geographically convenient to the residence of the employee. In 2005, OPM
and GSA established a more restrictive definition of telework that defined qualifying frequencies
of at least 3 days a week, 1-2 days a week, or at least once per month. Previously, even if an
employee teleworked less than once a month, the employee was included in the number of
teleworkers reported to Congress. The 2005 Annual Telework Status Report indicated that
1.3 million of the 1.8 million federal employees in 78 Federal agencies were eligible to telework.
Of the 1.3 million eligible employees, 119,248 or 9.51 percent, employees actually teleworked.

In May 2001, the FDIC introduced a Telework Pilot Program to give employees greater
work/life flexibility while continuing to meet the Corporation's mission. In May 2003, the
Corporation established a permanent program that allows for participation based on the specific
nature and content of the work to be performed rather than on position, grade, or work schedule.

FDIC Circular 2121.1, dated May 16, 2003, entitled, FDIC Telework Program, provides the
policy, program guidelines, general provisions, and responsibilities associated with the telework
program. The FDIC’s WorkLife Program Manager, who is part of the Division of


3
  Pandemic influenza is a global outbreak of disease that occurs when a new influenza virus appears or “emerges” in
the human population, causes serious illness, and spreads easily from person to person worldwide.

                                                         3
Administration’s (DOA) Human Resources Branch, is designated as the Telework Coordinator
and is responsible for providing management advisory services related to the telework program.


EVALUATION RESULTS
The FDIC has established a telework program that offers a means of supporting the
Corporation’s goal of enhanced employee flexibility and improved work/life balance, provided
that the efficiency of the FDIC and its mission are not adversely impacted. The FDIC’s program
is generally consistent with OPM’s A Guide to Telework in the Federal Government as it relates
to:

•   Appointing a telework coordinator;
•   Establishing telework policy, including determining eligibility, delineating responsibilities of
    managers and employees, creating and managing signed telework agreements, documenting
    denials, and applying uniform performance practices;
•   Establishing policies on information systems and technology security;
•   Establishing guidelines for equipment and support to be provided to teleworkers; and
•   Providing, to a limited extent, telework training.

Further, in 2003, the FDIC established the Examiner's Option program wherein eligible
examiners are permitted to work out of their homes or at approved alternative work sites when
not working at an insured depository institution or at another required site. Under this program,
the FDIC provides the employee with a one-time maximum reimbursement of up to $500 for
costs associated with equipment not otherwise provided by the Corporation, and an annual
reimbursement of up to $480 for costs associated with multiple telephone lines and/or high speed
data transmission access.

In the 2006 Federal Human Capital Survey, conducted by OPM, FDIC employees reported an
overall satisfaction rate with the Corporation’s telework program of 56.6 percent compared to
21.8 percent government-wide.

Finally, in 2006, the FDIC received an award from the Telework Exchange, a public-private
partnership focused on eliminating telework gridlock, for the Corporation’s innovative use of
technology to support employees who teleworked. The award was based primarily on the fact
that the FDIC provides a variety of remote access services to support its telecommuting and
mobile users and an access control method that enables virtually every eligible FDIC employee
with access to a computer to participate in the FDIC’s telework program.




                                                 4
EMPLOYEE PARTICIPATION IN THE FDIC’S TELEWORK PROGRAM

In 2004, the FDIC reported that 43.1 percent of its employees had teleworked. However, in
2005, following the establishment of a more restrictive definition of telework, OPM calculated
the FDIC’s participation at 4.56 percent in its Annual Telework Status Report. 4 For 2006, based
on the statistics submitted to the OPM, we calculated an increase in participation to 5.16 percent.
According to OPM’s 2007 Annual Telework Status Report, the FDIC’s participation level ranks
relatively low among other federal agencies. Specifically, we compared the FDIC’s standing
with 77 other federal agencies that reported telework participation to OPM in 2005. Our analysis
showed that the FDIC’s participation level of 4.56 percent was among the bottom 25 percent of
those agencies.

We also analyzed the impact that the more restrictive definition had on other agencies. We
determined that 46 of the 67 agencies that reported telework statistics in both 2004 and 2005 had
decreases in telework participation while the remaining 21 had increased participation. For
agencies with employee populations under 20,000, the change in reported participation ranged
from an increase of 3.42 percent at the Department of Housing and Urban Development to a
decrease of 54.4 percent at OPM.

FDIC Employees Participating in Telework

We conducted analyses to gain additional insights into the extent of employee participation in the
FDIC’s telework program. For example, using the statistics that the FDIC provided to OPM, we
determined that 47 percent of all FDIC employees participated in telework to some degree in
2006 and that the extent of participation varied by grade-level categories. (See Table 1 on the
next page.)




4
  Recognizing the impact the new definition would have on the government’s telework statistics, in its 2006 Report
to the Congress, the OPM cautioned that comparison to past years’ data is not meaningful. The new definitions have
narrowed the definition of “teleworker,” requiring a reasonable frequency of teleworking more in line with
programmatic needs. The OPM further noted that the definition change contributed to the government-wide
decrease in the number of teleworkers reported from 140,694 in 2004 to 119,248 in 2005.

                                                        5
Table 1: 2006 Corporation-Wide Participation in the FDIC’s Telework
Program by Grade

  Employee Grade                     FDIC              Teleworkers Report                Percent of FDIC
      Level                        Employees            in OPM Survey*                     Employees
                                                                                          Participating
 1 through 4                                     84                              3                    3.57%
 5 through 12                                 2,158                          1,035                   47.96%
 13 through 15                                1,745                            878                   50.32%
 CM-1 through 2                                 486                            206                   42.39%
 EM                                              93                             24                   25.81%
 Totals                                       4,566                          2,146                   47.00%
Source: OIG Analysis of the FDIC’s Response to OPM’s 2006 Annual Survey and DOA Demographics
Statistics.
*The accuracy of the time reported in the CHRIS T&A System assumes that those who teleworked accurately
coded their time as “telework” during each pay period.

We also determined that, based on the source data provided to OPM, 440 of 1,747, or 25
percent, of all eligible headquarters employees participated in the telework program in 2006.
Figure 1 below provides a breakdown of the participation by headquarters activity.

Figure 1: 2006 Headquarters Participation in the Telework Program


    300


    250


    200


    150


    100
                                              30%   40%               22%
                                32% 25%                                     18%                49%
      50
                11%                                                                     46%
                       100%                                9%                     33%                20%    10%
       0
                                     T




                                                                                          IG
                                                       R
                            R




                                                F




                                                                            l
                                                                  C
                                          A




                                                                          FO




                                                                                                 O
                  IA




                                                                         EO
           CU




                                                                                                       PA
                                                                          ga
                                  DI




                                               DO


                                                      DR
                         DI




                                         DO




                                                               DS




                                                                                                O
                 O




                                                                                         O
                                                                       Le


                                                                        C




                                                                                                      O
                                                                       D
                                                                      O

                                                                      O




                                Headquarters Population          Total Number of Teleworkers


Source: OIG Analysis of 2006 Telework Statistics provided by DOA. OERM participation was not
addressed in the statistics.



                                                           6
DOA noted that beyond the OPM participation level criteria, DOA also has its own views about
the success of its telework program, such as employees being able to practice partial day
telework to attend medical appointments or other non-work events in order to achieve a better
work life balance. While such telework events may not meet the OPM criteria, DOA believes
they are important in gauging the success of the Corporation's telework program.

Reliability of the Telework Statistics

Several issues bring into question the reliability of the telework statistics that were reported to
OPM, and the FDIC’s participation levels and ranking must be viewed in the context of these
issues.

•   When OPM redefined telework in 2005, OPM was not clear regarding what constituted a
    “day” of teleworking. According to OPM, neither OPM nor anyone else has defined what
    constitutes a “day” of telework and OPM has received questions on the definition from
    various agency representatives. As a result, agency reporting of telework participation is
    likely to be inconsistent.

•   When the FDIC provided telework statistics to OPM in 2005 and 2006 regarding the number
    of employees who teleworked on a regular, recurring basis, the Corporation only included
    examiners who were participating in the previously discussed Examiner Option program as
    teleworkers. The Corporation did so because it determined that these examiners best fit
    OPM’s new telework definition and because CHRIS T&A was not configured to capture the
    type of telework data that OPM requires. DOA representatives stated that as a result, FDIC
    under-represented telework participation levels to OPM.

•   The FDIC relies on the CHRIS T&A system to determine telework participation. Employees
    must select one of the 12 “telework” transaction codes when coding their time and attendance
    in order to be counted as teleworking. The FDIC lacks assurance that employees are coding
    their time and attendance in such a manner; thus, the Corporation may be underreporting the
    number of employees actually teleworking.

Conclusion

At first glance, the FDIC’s reported levels of participation should be of concern to management
as the Corporation should be following the lead of the Congress and Executive Branch in
promoting and increasing telework in the federal government. Further, the FDIC may be missing
opportunities to improve the quality of work life and morale of its employees. However, it is
unclear whether the Corporation has sufficiently reliable data to draw valid conclusions
regarding the extent to which employees are participating in its telework program. Statistics
submitted are being included in a statutorily-required report to the Congress and do get attention
from its members, other federal agencies, and the public.




                                                  7
Recommendation

We recommend that the Director, Division of Administration:

    1. Take steps to improve the quality and reliability of data collected for the purposes of
       determining the extent of telework participation by FDIC employees.


EVALUATION OF THE TELEWORK PROGRAM

The FDIC could do more to evaluate the success and status of its telework program to ensure the
program is meeting management’s expectations. In this regard, neither the WorkLife Program
Manager nor any of the nine divisions and offices we included in our review has conducted an
evaluation of the telework program. 5 Instead, the FDIC has principally relied on time charges in
the FDIC’s time and attendance system as a gauge of the telework program’s success. Prior to
OPM’s 2005 revised definition of telework, the FDIC’s statistics showed the number of
employees teleworking was approaching 50 percent. This figure was based on any time charged
as telework by an employee in the CHRIS T&A system regardless of the number of hours
worked. With such a high percentage of participation, management apparently determined there
was not a need to perform a program evaluation.

Circular 2121.1, Section 10, Evaluation, states that to adequately assess the impact and success
of the telework program, both employees and managers or supervisors are expected to participate
in the evaluation. The evaluation may include the collection of both quantitative and qualitative
data (including participation rates, office space needs, and other issues impacted by program use)
requiring the completion of surveys or responses to interview questions. The Circular does not
clearly address who should lead or conduct the evaluations or the required frequency.

DOA officials advised us that they were not aware of an overall evaluation of the program since
it became permanent in 2003. Further, none of the nine divisions and offices we included in our
review has conducted evaluations of their administration of the telework program. Division of
Insurance and Research officials told us although they have not performed a formal evaluation,
their senior management periodically discusses the division's stance on telework, how it is
administered, and the fairness of its application. Division of Finance (DOF) management
indicated they are working with representatives from DOA to gather statistics on DOF’s
participation in the telework program and to conduct a survey of their employees.

Finally, the FDIC has not established measurable telework program goals. Such goals can be
used in conducting program evaluations for telework in such areas as productivity, operating
costs, employee morale, recruitment, and retention.

Without a comprehensive program evaluation and measurable goals, it is difficult to assess
whether the Corporation’s telework participation meets management’s expectations and is

5
 The nine divisions and offices included the Office of Enterprise Risk Management (OERM), Corporate University
(CU), Division of Insurance and Research (DIR), Division of Information Technology (DIT), DOA, Division of
Finance (DOF), Division of Resolutions and Receiverships (DRR), Division of Supervision and Consumer
Protection (DSC), and the Legal Division.

                                                      8
reasonable considering the various factors that can impact the extent of telework at the FDIC. In
conducting such an evaluation, the FDIC should address the following areas.

Leadership Attention

On June 12, 2007, the Government Accountability Office testified before the Subcommittee on
Oversight of Government Management, the Federal Workforce, and the District of Columbia,
Committee on Homeland Security and Governmental Affairs, U.S. Senate, (GAO-07-1002T), that
the Telework Enhancement Act of 2007, S.1000, recognizes the importance of leadership in
promoting an agency’s telework program by requiring the appointment of a senior-level
management official to perform several functions to promote and enhance telework
opportunities. There is no consensus at this time regarding the specific duties of such an
individual in relation to the duties of the agency officials currently designated as telework
coordinators.

At the FDIC, oversight of the telework program has been made a part of the duties assigned to
the WorkLife Program Manager. The WorkLife Program Manager also has responsibility for
providing management advisory services relating to alternative work schedules, leave, dependent
care, employee assistance, and other programs. In addition, the WorkLife Program Manager
could be assigned to assist in issues related to classification and compensation, staffing and
placement, and human resources development. The FDIC’s approach to leadership of the
program —a mid-level manager devoted part-time—may fall short of what is being
contemplated in the pending legislation discussed previously and may need to be revisited.

Publicity and Training

We met with the WorkLife Program Manager to gain an understanding of recent efforts to
promote and provide training on the telework program. The following examples were provided:

•   DOA presented a program on telework in October 2006,
•   New employee and Corporate Employee Program orientations address telework,
•   Presentations are made at DSC regional conferences and other division conferences, and
•   Presentations at certain WorkLife Program seminars include telework information when
    appropriate.

OPM guidance, as well as telework literature and guidelines, states that informing employees
and managers of the program and publicizing it are key telework practices for implementation of
successful federal telework programs. Training and information on the following aspects of
telework may be beneficial to FDIC employees:

•   Types of assignments and circumstances that are suitable for teleworking,
•   Coding of time and attendance data,
•   The types of information that would be appropriate for teleworkers to be handling and how
    sensitive information should be protected when teleworking,
•   Home safety and technology considerations, and
•   The role that telework plays in continuity of operations (as discussed later in this report).



                                                 9
Conclusion

There is continuing Congressional interest to expand teleworking in the federal government, and
the FDIC’s policy encourages use of the telework program for those projects/duties that are well-
suited for completion at an alternative work site. Therefore, the FDIC should assess whether its
program and participation level meet corporate expectations and are reasonable considering the
various factors that can impact the extent of telework at the FDIC.

Recommendation

We recommend that the Director, Division of Administration:

   2. Conduct an evaluation consistent with Circular 2121.1 to determine whether the FDIC’s
      telework program is meeting management’s expectations and desired outcomes. The
      evaluation could address, among other things:

       •   Whether goals and objectives exist against which the success and impact of the
           program can be measured,
       •   Fairness and consistency across the Corporation in how managers are administering
           the program,
       •   Sufficiency of leadership and management attention, and
       •   Extent of promotion, publicity, and training.


INCORPORATING TELEWORK INTO BUSINESS CONTINUITY AND PANDEMIC
PREPAREDNESS

Telework is a key component of being prepared for and continuing operations during emergency
situations. The FDIC could more fully and expressly incorporate telework into its business
continuity planning and pandemic preparedness efforts. Doing so would provide the FDIC with
greater assurance that its employees and infrastructure can maintain uninterrupted operations or
be fully functional within the time frames prescribed by FEMA in the event of an emergency or
pandemic event.

Emergency Preparedness Guidance

The FEMA’s Federal Preparedness Circular (FPC) 65, Section 9. Planning Requirements for
Viable Coop Capability, revised as of June 15, 2004, is applicable to all Federal Executive
Branch departments, agencies, and independent organizations. FPC 65 defines Continuity of
Operations (COOP) planning as an effort to ensure that the capability exists to continue essential
agency functions across a wide range of hazard emergencies. COOP capability is intended to be
short-term; it must be functional within 12 hours and may last up to 30 days.

Section 9 further states that the COOP must include regularly scheduled testing, training, and
exercising of agency personnel, equipment, systems, processes, and procedures used to support
the agency during a COOP event. Section 10, Elements of a Viable Coop Plan, states that tests
and exercises serve to assess, validate, or identify for a subsequent corrective action program,

                                                10
specific aspects of COOP plans, policies, procedures, systems, and facilities used in response to
an emergency situation. Training familiarizes COOP personnel with the procedures and tasks
they must perform in executing COOP plans.

The OPM incorporates portions of FPC 65 guidance into its A Guide to Telework in the Federal
Government, which states that telework should be part of all agency emergency planning and
that management must be committed to implementing remote work arrangements as broadly as
possible to take full advantage of the potential of telework to ensure that:

       h Equipment, technology, and technical support have been tested.
       h Employees are comfortable with technology and communications methods.
       h Managers are comfortable managing a distributed workgroup.
       h Expectations are communicated both to the Emergency Response Team (ERT) and
         non-ERT employees regarding what steps they need to take in case of an emergency.
       h Business Continuity Plan (BCP) expectations are integrated into telework agreements
         as appropriate.
       h Essential personnel who might telework in case of an emergency are allowed to
         telework regularly to ensure functionality.

The section of the OPM Guide entitled, Practice, Practice, Practice, states that the success of an
organization’s telework program depends on regular, routine use. Experience is the only way to
enable managers, employees, IT support, and other stakeholders to work through any technology,
equipment, communications, workflow, and associated issues that may inhibit the transparency
of remote work. The OPM Guide concludes that individuals expected to telework in an
emergency situation should, with some frequency, telework under non-emergency
circumstances.

Business Continuity Plans, Pandemic Influenza Preparedness Plan, and Telework
Agreements

The FDIC stated in its report to OPM in the 2006 Call for Telework Data that telework has been
fully integrated into its emergency preparedness/COOP plans. However, neither the
Washington, D.C., area’s 2006 BCP, dated January 2007, nor the divisional BCPs contain
references to telework, although some divisions require their staff to remain at home during
emergency situations. We discussed the need to incorporate telework in the BCPs with the
FDIC’s Assistant Director, Security Management Section. The Assistant Director agreed that
telework is not specifically mentioned in the BCPs but stated that Corporation employees
understand that telework will be the means they use to continue or resume operations.

With regard to pandemic preparedness, the Assistant Director confirmed that telework is the
cornerstone of the FDIC’s pandemic plan but added that there are many telework-related issues
that must be addressed before the Pandemic Influenza Preparedness Plan (PIPP) is completed
and implemented. We discuss the FDIC’s progress in completing a pandemic preparedness plan
later in this report under the section entitled, “Other Matters.”




                                                11
Finally, we noted that Form 2121/05, Employee/Supervisor Telework Agreement, does not
specifically address the Corporation’s expectation that telework will be a key component of
employees continuing or resuming operations.

Training

As discussed earlier in our report, the FDIC’s telework training has concentrated on the benefits
derived from teleworking and has not addressed telework in the context of continuity of business
operations. None of the training provides hands-on experience that ensures an employee is
capable of teleworking from a remote site. Further, the FDIC’s Corporate University (CU) does
not offer technical telework training specifically designed for FDIC employees. DOA should
coordinate with CU to ensure that telework training addresses the role that telework plays in
maintaining continuity of operations as discussed in recommendation 2.

FDIC Employees Equipped to Telework

In 2005, the FDIC reported to the OPM that 3,784 of its 4,515 employees that were eligible to
telework were equipped, trained, and ready to telework in the case of a long-term crisis. 6 In
2006, the FDIC reported that 4,570 employees were eligible and 4,435 were prepared to
telework. These statistics represented all employees that had received a SafeWord®
authenticator token. While the number of tokens issued was a valid indicator of the FDIC’s
progress toward preparing its employees to telework, it was not necessarily representative of the
actual number of employees who successfully participated in the telework program.

On our behalf, DOA researched this issue and found that from July 1 through August 31, 2007,
3,414 unique user accounts, or 77 percent of all user accounts, were used to access the FDIC
network through one or more of the remote access systems. By refining the list, the Division of
Information Technology (DIT) determined that there were 822 headquarters accounts and 2,592
regional/field office accounts on the list of remote access users for this period. The high number
of field accounts (86 percent of all field accounts) was expected because examiners generally use
remote access methods to obtain access to the FDIC’s network. With regard to the headquarters
accounts, 822 accounts represent 53 percent of headquarters accounts.

Telework Tests

The FDIC’s employees have not been required to practice telework under simulated emergency
conditions. The Assistant Director, Security Management Section, confirmed that the FDIC has
not conducted practice tests of the emergency operations. In October 2006, the FDIC sponsored
a Corporate Telework Week. Employees were encouraged to telework, at a minimum, one day
during that week. The number of teleworkers was measured through the FDIC Time and
Attendance system. During this event 870 FDIC employees teleworked, making this period of
participation the highest for all of 2006.




6
  In a subsequent section of this report, we discuss concerns with the training and readiness of employees for
teleworking in a crisis.

                                                         12
According to KPMG, DIT has asserted that the FDIC has a fully redundant remote access
solution that is able to support all FDIC employees. Specifically, DIT has deployed a Remote
Computing Network (RCN) solution for its primary back-up site – the Richmond Data Center –
with a software configuration that is nearly identical to the one used on a regular basis at
Virginia Square. DIT also asserted that the Richmond Data Center RCN solution is capable of
supporting 5,000 users. However, this assertion is based upon the technical designs of the RCN
solution created during the 2003 or 2004 time frame. KPMG indicated that actual testing of
5,000 concurrent sessions should be conducted to ensure that the original RCN architecture
remains capable of supporting such a large number of concurrent users with the addition of new
applications and newer versions of Microsoft Office.

DIT acknowledged that the capacity of its remote access network had not been stress tested with
remote workers but stated that in the event of a major business interruption that impacted
multiple federal agencies, the true "Achilles heel" of agency business continuity planning would
be the ability of the local telecommunications infrastructure to handle increased activity from
thousands of remote workers. While this may be true, we believe there is merit in stress testing
the FDIC's remote access network and verifying FDIC employees' technical ability to connect to
the FDIC network remotely. Such a test could be as simple as requiring all, or a large number of,
FDIC headquarters employees to work from home on a particular day and attempt to remotely
log on to FDIC's network at a particular time.

Conclusion

The FDIC recognizes that telework is a key component to resuming or continuing operations in
the event of an emergency or pandemic event and has taken some steps to ensure that its
employees are sufficiently prepared and its technology solution is adequately designed to that
end. However, consistent with OPM and FEMA guidance, the Corporation would benefit from
taking further action to communicate and integrate telework into its business continuity and
pandemic preparedness planning, ensure managers and employees are comfortable with telework
arrangements, and validate that its technology solution works under simulated emergency
circumstances.

Recommendations

We recommend the Director, Division of Administration:

   3. Revise the FDIC BCPs and pandemic preparedness plans to more specifically describe
      the role telework plays in those plans.

   4. Identify personnel who would be expected to telework during an emergency and include
      corporate expectations into their telework agreements.

   5. Implement periodic testing of equipment, technology, and technical support associated
      with large numbers of employees concurrently teleworking in an emergency situation and
      require individuals expected to telework in an emergency situation to periodically
      telework under non-emergency circumstances.



                                               13
SECURITY CONTROL REQUIREMENTS FOR TELEWORK

KPMG evaluated the security controls for telework and found that the FDIC has implemented a
number of controls and has an on-going effort to fully address all of the security requirements of
OMB Memorandum M-06-16, Protection of Sensitive Agency Information, dated June 23, 2006
(M-06-16). The FDIC has met the two-factor authentication requirement for user identification,
and remote network sessions are encrypted. Also, the FDIC specifically addresses the telework
program and provides guidance on protecting sensitive information when teleworking in its
Annual Security Awareness Training that is required for all employees and contractors and has
issued extensive guidance related to information security. However, work remains for the FDIC
to complete its planned deployment of an enterprise-wide automated encryption solution for
laptops, removable Universal Serial Bus (USB) devices, and Personal Digital Assistantws (PDA)
to provide increased assurance that sensitive data stored on such equipment and devices will be
appropriately protected. Further, the FDIC could take additional steps to protect data from
unauthorized access during telework sessions on non-FDIC computers.

Methods for Teleworking

The FDIC provides four methods for remote users (e.g., teleworkers) to access the FDIC
network. These services include Ascend Dial-In, RCN, FastAccess, and WebVPN.

       Ascend dial-in is available for use with FDIC laptops. The service provides dial-in
       access to the FDIC network using standard analog telephone lines to connect via a local
       access or national 800 number.

       RCN is a secure, Web-based remote access system available for use with home
       computers or FDIC laptops. Remote users access an FDIC secure gateway over the
       Internet, log in, and establish a remote session with an RCN server running a limited set
       of office applications.

       FastAcess is a Web-based remote access service intended to provide mobile users basic
       access to FDIC computing resources without having to install certificates or specialized
       software.

       Web/VPN is a secure remote access system intended to provide full network access to
       employees using FDIC laptops. A VPN is a network that can provide remote offices or
       individual users with secure access to an organization's network via the Internet.

Key Security Controls Associated with Teleworking

OMB Memorandum M-06-16 recommends the following security controls for safeguarding
information removed from, or accessed from outside of agency locations: (1) encrypt all
sensitive data on mobile computers and devices; (2) allow remote access only with two-factor
authentication; (3) use a ‘‘time-out’’ function requiring user re-authentication after 30 minutes of
inactivity for remote access and mobile devices; and (4) log all computer-readable data extracts



                                                14
from databases holding sensitive information and verify that each such extract has been erased
within ninety 90 days or that its use is still required.

Data Encryption

OMB M-06-16 recommends encryption of all data on mobile computers and devices that carry
sensitive agency data. FDIC Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007,
requires that sensitive information stored on end-user IT equipment (e.g., laptop and desktop
computers) as well as on removable media (e.g., diskettes, CD/DVD, USB flash drives, external
removable hard drives) are to be encrypted. In addition, sensitive information should only be stored
on corporate IT equipment. The current data encryption methods (Entrust, PKZIP, and Microsoft
EFS7) are manual.

When employees telework and perform tasks using applications and data on the FDIC’s laptops
and network, the information is adequately protected regardless of which of the four available
access methods they use—as long as the information remains within the network and is not
downloaded to a home computer or storage device. In addition, the FDIC is working on an
automated solution to ensure that sensitive information stored on mobile computers and devices
is encrypted. In that regard, DIT initiated the Enterprise Encryption Project (EEP) in August
2006 with separate phases for encryption of laptops, removable media, and PDA devices. In our
October 11, 2007 draft report, we reported that:

•   The FDIC had selected Pointsec as the tool to encrypt data on laptops and as of
    September 20, 2007, DIT had installed encryption software on 2,500 of the approximately
    3,800 agency laptops as part of Phase I of the EEP. The remaining laptops were scheduled to
    be encrypted as part of the Corporate Laptop Replacement Project by October 19, 2007.

•   The FDIC was in the inception stage of Phase II of the EEP, the objective of which was to
    identify a software tool to encrypt removable storage devices that connect to a computer
    (such as USB drives). Phase II was scheduled to be implemented on January 25, 2008.

•   Phase III of the EEP was scheduled to begin in January 2008 and entailed identifying an
    encryption solution for PDA devices. At the time of our draft report issuance, the completion
    date for Phase III had not been determined.

We concluded that manual data encryption methods could not ensure that all sensitive data stored
on FDIC-provided mobile computers, storage devices, and PDAs was encrypted because these
methods are prone to human errors and omissions. We reported that until the EEP is completed,
sensitive data stored on FDIC IT equipment would be more vulnerable to unauthorized access if
the media was lost or stolen.

DIT provided updated milestone information for the EEP project in November 2007. The FDIC
completed Phase I encryption of all corporate laptops in November 2007. Regarding Phase II,
encryption of removable media, DIT provided a project plan with detailed milestones which

7
 EFS only encrypts files stored on internal hard drives and cannot encrypt files stored on CD/DVD or USB storage
devices. Users can encrypt files on DVDs and CDs using Entrust or PKZip

                                                       15
estimated completion of the encryption for USB drives in January 2008 and CDs by March 2008.
Regarding Phase III encryption of PDA devices, DIT implemented a pilot in late November and
anticipated full implementation of PDA encryption by the end of December 2007.

Two-Factor Authentication for Remote Access

OMB M-06-16 recommends that agencies allow remote access only with two-factor authentication
where one of the factors is provided by a device separate from the computer gaining access.

KPMG tested all four of the FDIC’s remote access methods, Ascend Dial-in, RCN, FastAccess®, and
WebVPN, and found that the four access methods meet the two-factor authentication requirement set
forth in M-06-16. Remote access users are required to enter their network user identification and
accompany it with their network password, a one-time key generated by a Safeword® authenticator
token, and a 4-digit user-selected PIN before being granted access to the FDIC network.

Time-Out Function Requiring User Re-authentication After 30 Minutes of Inactivity

NIST Special Publication 800-53, Rev. 1, Recommended Security Controls for Federal Information
Systems (NIST 800-53), requires that the information system automatically terminates a remote
session after a maximum of 30 minutes of inactivity for remote access and portable solutions.

KPMG tested the time-out function for all four of the FDIC’s remote access methods. The
testing showed that the FDIC has instituted several functional time-out configurations for its four
remote access methods that will automatically time out or disconnect the user after 30 minutes of
inactivity. However, as shown in Table 2, several situations exist where remote connections are
not successfully timed out after 30 minutes of inactivity as required by M-06-16.




                                                16
Table 2: Time-out Function Test Results
   Remote                               Inactivity                              Max Session
                   Remote Access
    Access                              Time-Out (30                            Time-Out (180
                     Methods
   Solution                             Minutes) Test                           Minutes)Test
                                        Outlook Closed        Outlook Open      Outlook Closed        Outlook Open
                  This method is
  Ascend Dial- available for use
                                              Failed               Failed             Passed              Passed
       in         on FDIC laptops
                  only.
                  RCN is intended
                  for use with home
     RCN                                     Passeda               Passeda            Passeda            Passeda
                  computers or
                  FDIC laptops.
                               ®
                  FastAccess is
                  intended for use
             ®
  FastAccess      with home                  Passeda               Faileda            Passeda            Passeda
                  computers or
                  FDIC laptops.
                  WebVPN is
                  available for use
   WebVPN                                     Failed               Failed             Passed              Passed
                  on FDIC laptops
                  only.
Source: KPMG Evaluation Results. Test conducted from July 18 through 25, 2007.
                                                                                                       ®
Note: Access to the network through all remote access solutions is facilitated by the use of a Safeword
authenticator token (two-factor authentication). All four remote access solutions are configured to time out after 30
minutes of user inactivity or after 180 minutes regardless of activity.
a
  Same result when tested on personally-owned PC.


The FDIC is experiencing technical difficulties in implementing the 30 minute time-out configurations
for Ascend Dial-in, FastAccess®, and WebVPN. Specifically, the network is not able to discern
between actual user activity and background software services running on the computer such as
antivirus and personal firewall computer processes.

Abandoned remote access connection sessions that do not properly time out after a period of user
inactivity may be accessed by unauthorized users to gain access to sensitive agency data. As a
compensating control, DIT has implemented a 15-minute password-protected screensaver on all FDIC
computers. Testing revealed that FastAccess® failed to time out after 30 minutes of inactivity on a
non-FDIC computer with an open session of Microsoft Outlook for e-mail service.

Logging Data Extracts and Erasing Extracts After 90 Days

OMB Memorandum M-06-16 recommends that agencies “log all computer-readable data
extracts from databases holding sensitive information and verify each extract including sensitive
data has been erased within 90 days or its use is still required.” In addition, NIST 800-53
requires that organizations increase the level of audit monitoring and analysis activity within the
information system whenever there is an indication of increased risk to organizational operations
[or] organizational assets. Organizations are to employ automated mechanisms to integrate audit



                                                         17
monitoring, analysis, and reporting into an overall process for investigation and response to
suspicious activities.

The FDIC has not implemented a solution to automatically log all computer-readable data
extracts from databases holding sensitive information and confirm its subsequent deletion within
90 days for data that is no longer needed. The FDIC is currently researching potential software
solutions that will satisfy this M-06-16 requirement. Although DIT has initiated an effort to
identify a data extract logging software solution that meets the technical and functional
requirements for logging sensitive data extracts, DIT indicated that the commercial software
market has not developed a suitable product to meet the FDIC’s needs. DIT also indicated that
this requirement is proving to be a challenge for most federal agencies.

With respect to extraction of sensitive data, if such activity is not logged, monitored, and its deletion
confirmed after 90 days following its extraction, the extracted sensitive data could be vulnerable to
unauthorized electronic copying and sending by individuals with malicious intent. In addition, RCN
and FastAccess® could allow users to store sensitive information unencrypted on home computers that
are vulnerable to unauthorized access.

Through discussions and limited testing, KPMG determined that as a compensating control, the
FDIC’s Enterprise Information Management (EIM) group is restricting the ability to copy
production data to non-production environments by implementing a set of procedures for data
requests. EIM has also published policy limiting access of production data for testing, quality
control, and deployment preparation purposes to 45 days, at which point, access to the data is
automatically removed.

Identifying Sensitive Information to be Used When Teleworking

In addition to KPMG’s work on IT security, we determined that divisions and offices had not
developed specific guidance identifying sensitive information related to their respective activities
and operations that may not be appropriate for telework. Instead, the divisions and offices were
relying on corporate-wide information security guidance. To better ensure that sensitive
information is properly safeguarded when employees are teleworking, requests to telework
should identify the data that will be used and its source, and that information should be
considered in making decisions to approve or disapprove requests.

The FDIC has issued extensive guidance related to information security, for example:

    h   FDIC Circular 1300.4 – Acceptable Use Policy for Information Technology Resources
    h   FDIC Circular 1310.3 – Technology Security Risk Management Program
    h   FDIC Circular 1310.5 – Encryption and Digital Signature for Electronic Mail
    h   FDIC Circular 1360.1 – Automated Information Systems (AIS) Security Policy
    h   FDIC Circular 1360.9 – Protecting Sensitive Information

FDIC Form 2121/05, Employee/Supervisor Telework Program Agreement, states that applicable
policies and directives related to equipment and information security, such as those mentioned
above, apply to the telework program. Further, Form 2121/05 cautions that employees may be
held responsible for security breaches or equipment damage due to negligence. Circular 2121.5,

                                                   18
FDIC Telework Program, Section 7. Paragraph d., states that employees must comply with all
security and record keeping measures outlined in established policies and directives. Further, the
Circular states that all FDIC records and data shall be protected against unauthorized disclosure,
access, mutilation, obliteration, and destruction.

We contacted representatives of nine divisions and offices to determine if any had issued
supplemental guidance specifically identifying data that should not be removed from the FDIC
and used during telework sessions. Representatives of the five divisions and offices that
responded indicated that they had not issued such guidance and were relying on existing
corporate-wide guidance related to data security or encryption.

While DSC had not issued specific guidance related to data used during telework sessions, we
noted that DSC had issued a memorandum dated August 15, 2006, entitled, Safeguarding
Examination Information (Transmittal No. 2006-025), which states that examination information
is broadly defined as all documentation involved in a bank examination. It includes the Report
of Examination, examination work papers, and bank information received during the
examination process. Attachment A of the memorandum states that the protection of
examination information will require technical, physical, and administrative safeguards. The
attachment states, for example, that all examination information stored on laptops, retained on
CDs, DVDs, flash drives, or any other storage media shall be encrypted. Finally, the attachment
states that staff on travel status or telework status must ensure confidential information is secure
when unattended.

We also noted that DRR had issued guidance entitled, DRR’s Guidelines for Protecting Sensitive
Data, to help its employees and contractors better understand how to protect sensitive
information. The guidelines describe: the types of data, when combined, which can be deemed
as sensitive; responsibilities and methods for protecting sensitive information; and DRR systems
that contain sensitive information.

Conclusion

The security goal of all federal agencies is to minimize the chance that unauthorized access to
their network will occur. The FDIC continues to make progress in complying with OMB M-06-
16 by identifying and resolving security weaknesses related to telework and remote access.
Some risks remain associated with providing employees remote access to the FDIC’s network
and information systems. We are mindful in making recommendations as the FDIC faces similar
challenges securing its information systems as do other agencies and must strike a balance
between business needs, risk, and cost.

Recommendations

We recommend the Director, Division of Information Technology:

   6. Pursue improvements in security controls associated with telework, when deemed cost
      effective, in the following areas:




                                                19
        h Continuing to work toward an enterprise-wide automated encryption solution for data
          stored on laptops, removable USB devices, and Personal Digital Assistants.

        h Working to resolve technical issues that prevent FastAccess® with an open Outlook
          session from timing out after 30 minutes of inactivity in order to be consistent with
          the user re-authentication requirement of OMB Memorandum 06-16.

        h Restricting user capability to extract and store sensitive data on non-FDIC computers
          while using RCN or FastAccess®.

We recommend the Director, Division of Administration:

    7. Modify the FDIC Form 2121.5, Employee/Supervisor Telework Program Agreement, for
       regular or recurring telework situations to include identifying any sensitive data that may be
       used during telework and its source in order to assist management in making the decision to
       approve or disapprove a telework request.


OTHER MATTERS

INFLUENZA PANDEMIC PREPAREDNESS PLANNING

The Corporation’s task force formed in February 2006 to develop the PIPP has neither completed
the plan that will provide guidance for handling a pandemic event, nor has it set a target date for
its completion.

To address the pandemic issue, the FDIC created a task force led by the Assistant Director,
Facilities Operations Section. The task force is assigned to address the challenges of the
pandemic influenza and to develop a PIPP that specifically includes preventive hygiene; social
distancing or telework; and limiting movement in accordance with OPM’s A Guide to Telework
in the Federal Government. The PIPP is to be incorporated as an addendum to the FDIC
Emergency Preparedness Plan.

According to task force members, the task force has:

        h Drafted a “Decision Point” memorandum to the Human Resources Committee that
          the Assistant Director, Facilities Operations Section, expects to finalize by the end of
          September or early October;
        h Conducted demonstrations of the Department of Treasury Web-based Pandemic Flu
          awareness-level training;
        h Held discussions regarding a draft Pandemic Flu Plan;
        h Participated in the Financial Banking Information Infrastructure Committee’s
          pandemic flu table-top exercise. 8


8
 The FBIIC and the Financial Services Sector Coordinating Council were responsible for conducting a pandemic flu
exercise for the financial services sector in the United States from September 24 through October 12, 2007.

                                                      20
The Assistant Director confirmed that telework is the cornerstone of the FDIC’s pandemic plan;
however, he added that there are many telework-related issues that must be addressed before the
PIPP is completed and implemented. For example, task force members are conducting
discussions with FDIC management and union representatives to:

       h Clarify Information Technology (IT) limitations and constraints, which include
         determining whether all employees can successfully activate their Safeword®
         authenticator tokens,
       h Establish laptops in reserve for teleworkers,
       h Ensure the FDIC population is telework-ready, and
       h Determine how employees will be paid in a pandemic scenario.

While some progress has been made in developing the PIPP, additional management attention to
the project may be beneficial to expediting its completion. Completing the PIPP and training
FDIC managers and employees on its implementation will provide greater assurance that the
FDIC can remain fully functional during a pandemic event.

Recommendation

We recommend the Director, Division of Administration:

   8. Establish milestones for completing the FDIC’s Pandemic Influenza Preparedness Plan
      and its incorporation, as an addendum, to the FDIC Emergency Preparedness Program.


SUBMISSION OF TELEWORK AGREEMENTS AND HOME SAFETY SELF-
CERTIFICATIONS

The FDIC may be able to more efficiently administer the telework program. Specifically, the
Corporation should pursue having employees participating in the FDIC telework program submit
their Employee/Supervisor Telework Agreement (FDIC 2121/05) and their Home Safety Self-
Certification (FDIC 2121/04) forms for approval and filing in an electronic format rather than in
hard copy as currently required.

The FDIC has incorporated guidance from A Guide to Telework in the Federal Government
regarding telework agreements and home safety self-certification into its Circular 2121.1 FDIC
Telework Program. Section 5, Program Guidelines, of Circular 2121.1, states that supervisors
must maintain a current form FDIC 2121/05 and form FDIC 2121/04. The supervisor is required
to review these forms and keep a copy of each for their records. The Employee/Supervisor
Telework Program Agreement provides needed contact information and outlines rights,
responsibilities, and general program provisions. Section 8, Responsibilities, states that
employees must update these documents annually or as otherwise required. Both forms are
currently available electronically on the FDIC Intranet.

At our request, the FDIC’s Legal Division reviewed the requirement for employees to submit
FDIC 2121/05 and FDIC 2121/04. The Legal Division concluded that the requirement stems
from negotiated provisions in the national Collective Bargaining Agreement (CBA) between the

                                               21
FDIC and National Treasury Employees Union (NTEU), which states that both forms must be
current and updated by January 31 of every calendar year.

Further, the FDIC’s Legal Division stated that both the negotiated national CBA between the
NTEU and the FDIC (at section 4E) and Circular 2121.1 (at section 8b), which was also
negotiated with NTEU, require that employees participating in the FDIC telework program
submit form 2121/04. This form is required to ensure that an employee’s alternative work site
complies with general safety standards and because an employee will be compensated under the
Federal Employees Compensation Act if injured while actually performing official duties at the
alternate work site.

As a result of its review, the Legal Division concluded that new requirements for electronic
submission of forms 2121/05 and 2121/04 would be subject to negotiations with NTEU.

Recommendation

We recommend the Director, Division of Administration:

   9. Evaluate the cost/benefit of employees electronically submitting forms 2121/05 and
      2121/04, and if deemed cost-beneficial, negotiate with the NTEU to institute electronic
      submission and approval of the forms.




                                               22
CORPORATION COMMENTS AND OIG EVALUATION

The DOA and DIT Directors provided a written response, dated November 29, 2007, to a draft of
this report. The response is presented in its entirety in Appendix II. Management concurred
with recommendations 1, 2, 3, 7, and 8, concurred with the intent of recommendation 4, and
partially agreed with recommendations 5 and 6. Management did not agree with
recommendation 9, but offered a reasonable explanation for not taking action on the
recommendation at this time. A discussion of management’s response to recommendations 5, 6,
and 9 follows:

Recommendation 5: Implement periodic testing of equipment, technology, and technical
support associated with large numbers of employees concurrently teleworking in an
emergency situation and require individuals expected to telework in an emergency
situation to periodically telework under non-emergency circumstances.

DOA deferred to DIT on this recommendation. DIT partially agreed with this recommendation
and proposed an alternative action. DIT noted there is no requirement to support a large number
of users to telework in an emergency. However, DIT agreed to stress test RCN, which is the
most heavily used remote access method, to enhance the current engineering estimates of the
projected number of users that can be supported on this technology.

DIT also noted that FDIC employees and contractors routinely use remote access tools to log
into the FDIC network and that current usage results in thousands of remote connection sessions
each month to the FDIC’s network and systems, providing evidence that employees are capable
of remotely accessing the network.

We accept DIT’s alternative action to this recommendation; however, we continue to believe that
it would be prudent to periodically require employees to practice telework under simulated
emergency conditions. Doing so would also be consistent with FEMA and OPM guidance.

Recommendation 6: Pursue improvements in security controls associated with telework,
when deemed cost effective, in the following areas:

       h Continuing to work toward an enterprise-wide automated encryption solution
         for data stored on laptops, removable USB devices, and Personal Digital
         Assistants.

       h Working to resolve technical issues that prevent FastAccess® with an open
         Outlook session from timing out after 30 minutes of inactivity in order to be
         consistent with the user re-authentication requirement of OMB Memorandum
         06-16.

       h Restricting user capability to extract and store sensitive data on non-FDIC
         computers while using RCN or FastAccess®.

DIT provided updated milestone information for the EEP project in November 2007. The FDIC
completed Phase I encryption of all corporate laptops in November 2007. Regarding Phase II,

                                              23
encryption of removable media, DIT provided a project plan with detailed milestones, which
estimated completion of the encryption for USB drives in January 2008 and CDs by March 2008.
Regarding Phase III encryption of PDA devices, DIT implemented a pilot in late November and
anticipated full implementation of PDA encryption by the end of December 2007. This
additional information is sufficient to address and close this portion of the recommendation.

DIT partially agreed with Bullet 2 above, regarding time-out of network sessions. DIT
representatives were unaware of any technical solution that would prevent Outlook Web access
from remaining open beyond the 30 minute time-out window when new email traffic is sent to
the client by the exchange server. DIT agreed to complete an Acceptance of Risk memorandum
by November 30, 2007 for this situation.

DIT partially agreed with Bullet 3 above, regarding logging data extracts and restricting
downloads to non-FDIC computers. However, DIT representatives indicated that there is no tool
in the current market place that will log data extracts and erase them after 90 days. DIT has
implemented compensating controls to mitigate these risks. Further, DIT agreed to continue to
look for and evaluate new solutions should they become available. The OIG considers DIT’s
response sufficient to resolve the recommendation.

Regarding restricting downloads to non-FDIC computers, DIT indicated that this is a risk for
RCN, but not for Fast Access®. DIT is not aware of a solution to this situation, short of
prohibiting access to the data, which DIT does not view as a viable business solution. DIT has
made a business decision to accept this risk, and DIT has again agreed to complete an
Acceptance of Risk memorandum by November 30, 2007.

The OIG considers the first portion of this recommendation (encryption) closed. The remaining
portions of this recommendation (system time-out and logging of extracts/downloads of sensitive
data) are resolved, but will remain open pending receipt of DIT Acceptance of Risk memoranda.

Recommendation 9: Evaluate the cost/benefit of employees electronically submitting forms
2121/05 and 2121/04, and if deemed cost-beneficial, negotiate with the NTEU to institute
electronic submission and approval of the forms.

DOA did not agree with this recommendation. DOA indicated that the cost of the evaluation
may exceed any savings derived from filing forms 2121/05 and 2121/04 electronically. DOA
described the volume of paper generated through annual submissions as de minimis.

DOA also stated that, in the future, if such changes are to be determined to be in the
Corporation’s interest, they could be included as an agency proposal to be bargained over with
NTEU when the national Collective Bargaining Agreement is next renegotiated. We accept
management’s decision on this recommendation, and we consider the recommendation closed.




                                               24
                                                                                       APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the extent to which the Corporation has established and implemented
a telework program that is consistent with applicable federal standards and guidelines and
recognized best practices. Prior to the start of our fieldwork, we met with senior officials of DIT,
DOA, and OERM to ensure that our objectives and approach would result in information that
addressed their needs and concerns.

Evaluation Methodology

To accomplish our objective, we became familiar with the FDIC’s corporate policies and
procedures applicable to the FDIC’s telework program, including the FDIC BCP, which contains
a BCP for each FDIC division and office and the Emergency Response Plan. Both documents
are dated January 2007. We reviewed the FDIC’s internal telework-related circulars, including
the following:

h FDIC Circular 2121.1, dated May 2003, entitled, FDIC Telework Program. This circular
  establishes policy and issues guidance on the FDIC Telework Program within the FDIC.
h FDIC Circular 1380.3, dated April 1999, entitled, Laptop Computer Assignments,
  Safeguards, and Asset Management. This circular provides guidance on monitoring the
  movement of laptops within and outside of FDIC facilities.
h FDIC Circular 1360.9, dated April 2007, entitled, Protecting Sensitive Information. This
  circular establishes policy on protecting sensitive information collected and maintained by
  the Corporation and provides guidance for safeguarding the information.
h FDIC Circular 1500.5, dated January 2007, entitled, FDIC Emergency Preparedness
  Program. This circular provides guidance on responsibilities and guidelines for ensuring the
  safety and security of all FDIC personnel and the efficient resumption of the FDIC’s critical
  business processes during an emergency.

Additionally, we compared and evaluated FDIC policy and program elements against applicable
government-wide guidance from OPM, GSA, OMB, and FEMA as follows:

h Office of Personnel Management: OPM-II-A entitled, A Guide to Telework in the Federal
  Government, dated August 2006.
h General Services Administration: Federal Management Regulations (FMR) Bulletin 2007-
  B1 entitled, Information Technology and Telecommunication Guidelines for Federal
  Telework and Other Alternative Workplace Arrangement Programs, dated March 2007.
h Office of Management and Budget: OMB Memorandum M-06-16 entitled, Protection of
  Sensitive Agency Information, dated June 2006.
h FEMA, Federal Preparedness Circular (FPC) 65 entitled, Federal Executive Branch
  Continuity of Operations, dated June 2004.

We also reviewed relevant GAO reports and testimony.




                                                25
                                                                                    APPENDIX I

On our behalf, KPMG reviewed:

h The National Institute of Standards and Technology, Special Publication 800-53 Rev. 1,
  Recommended Security Controls for Federal Information Systems, dated December 2006.
h FMR Bulletin 2007 B-1, Information Technology and Telecommunications Guidelines for
  Federal Telework and Other Alternative Workplace Arrangement Programs, dated February
  2007.

Further, KPMG:

h Evaluated the FDIC’s four methods of remote access,
h Interviewed program officials about the status of initiatives intended to identify methods of
  automated encryption of sensitive information stored on mobile computers and devices,
h Verified that the time-out function for the remote access methods functioned properly, and
h Assessed the FDIC’s progress for logging data extractions and erasing them when no longer
  needed.

To identify “Best Practices” we reviewed guidance from 13 government agencies that included:
the U.S Departments of Agriculture, Defense, Education, Energy, Homeland Security, Housing
and Urban Development, Interior, Justice, Labor, State, Treasury, and the GSA, and the
Securities and Exchange Commission. We also contacted the National Credit Union
Administration and the Office of the Comptroller of the Currency to determine if their examiners
were reported as teleworkers. We interviewed DOA’s program officials about the status of the
telework program, including the types of telework programs, participation levels by selected
divisions and offices, and participation levels by grade.

We surveyed OERM, CU, DIR, DIT, DOA, DOF, DRR, DSC, and the Legal Division to
determine if evaluations of the telework program had been conducted in their respective
divisions and offices. All of the divisions and offices responded to our inquiry. We also
surveyed the same divisions and offices to determine if they had issued supplemental guidance
specifically identifying data that should not be removed from the FDIC and used during telework
sessions. Five (DIR, DIT, DRR, DSC, and OERM) responded to this inquiry. We did not
interview selected FDIC managers responsible for approving telework requests to understand
what types of duties employees are performing while on telework. Neither did we interview
managers to determine how they monitored employees’ use of telework once we determined that
neither DOA program officials nor the divisions and offices we surveyed had conducted an
evaluation of the telework program. Additionally, we performed the following:

h Reviewed OPM telework reporting and verified the FDIC’s compliance. We also
  interviewed OPM’s Lead WorkLife Program Specialist to obtain clarification of OPM
  guidance regarding reporting of telework statistics;
h Performed analysis of telework participation information to identify trends and usage among
  divisions and offices. Furthermore, we evaluated the efficiency of the FDIC’s use and
  management of telework program documentation;




                                               26
                                                                                   APPENDIX I


h Assessed the FDIC’s guidance on the types of applications that can be accessed and security
  category of information that can be processed, stored, and transmitted while teleworking and
  the FDIC’s efforts to ensure information security at employees’ telework locations; and
h Assessed the FDIC’s policy and practices on providing equipment and infrastructure,
  including phone lines and information technology equipment to teleworkers.

We attended “Telework Made Easy” sponsored by the Mid-Atlantic Telework Advisory Council,
which included a panel of experts from Microsoft, Dyscern, and the GSA who discussed how
their organizations implemented an expansion of their telework efforts. Finally, we attended a
hearing of the United State Senate Subcommittee on Oversight of Government Management,
“Assessing Telework Policies and Initiatives in the Federal Government,” which discussed new
legislation, the Telework Enhancement Act of 2007 - S. 1000.

We performed our evaluation from June 2007 through September 2007, in accordance with the
Quality Standards for Inspections.




                                              27
                       APPENDIX II


CORPORATION COMMENTS




          28
     APPENDIX II




29
     APPENDIX II




30
     APPENDIX II




31
     APPENDIX II




32
     APPENDIX II




33
                                                                                                                               APPENDIX III

                                      MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of the recommendations as of
the date of report issuance.

 Rec.                                                                           Expected         Monetary   Resolved:a          Open or
Number            Corrective Action: Taken or Planned/Status                 Completion Date     Benefits   Yes or No           Closedb

    1      Management concurred with the recommendation. DOA                  March 31, 2008        $0         Yes               Open
           proposed a set of assumptions for collecting more reliable data
           from CHRIS T&A and agreed to develop a new reporting
           format for collecting telework participant statistics.
                                                                             December 31, 2007
           In addition management agreed to request all time keepers to
           remind employees to properly code all telework.

    2      Management concurred with the recommendation. DOA plans           October 31, 2008       $0         Yes               Open
           to define telework program goals and objectives that will
           allow for meaningful program evaluations for specific
           telework areas. The definitions will provide a framework for
           an evaluation tool designed to assess the progress of the
           FDIC’s telework program, identify problems and issues, and
           provide for appropriate adjustments and improvements.

    3      Management concurred with the recommendation and is                January 31, 2008      $0         Yes               Open
           currently revising the BCP to fully describe the role telework
           plays in all contingencies, including pandemic events.

    4      Management concurred with the intent of this                       January 31, 2008      $0         Yes               Open
           recommendation and as part of the BCP revalidation process,
           will have divisions identify personnel expected to telework
           during an emergency.




                                                                        34
                                                                                                                         APPENDIX III

 Rec.                                                                           Expected         Monetary   Resolved:a    Open or
Number          Corrective Action: Taken or Planned/Status                   Completion Date     Benefits   Yes or No     Closedb

  5      Management partially concurred with the recommendation.              March 15, 2008        $0         Yes         Open
         DIT stated that there is no requirement to support a large
         number of users to telework in an emergency. As an
         alternative to the recommendation, DIT agreed to stress test
         RCN, which is the most heavily used remote access method.

         DIT also noted that current remote usage results in thousands
         of remote connection sessions each month that evidences
         employees’ ability to work remotely.

         We accept management’s proposal as a method to enhance the
         current engineering estimates of the projected number of users
         that can be supported on the FDIC’s current technology.

  6      Management considers the 1st bullet, associated with                      N/A              $0         Yes         Open
         enterprise-wide encryption, resolved. DIT recently completed
         phase 1 of the automated enterprise-wide encryption solution
         with the installation of encryption software on new corporate
         laptops. DIT also provided or discussed with OIG the flash
         drive encryption project plan and the Request for Information
         for BlackBerry encryptions. DIT plans no further action on
         this portion of the recommendation.

         Management partially concurred with the 2nd bullet, associated      November 30, 2007      $0
         with system time-out issues. DIT agreed that when using
         FastAccess, Outlook web access remains open and does not
         time out if the exchange server sends out new email traffic
         within the 30-minute FDIC time-out window. However, the
         session does have a fixed maximum time-out at 180 minutes
         that partially mitigates this risk. DIT knows of no acceptable
         business solution and will therefore complete an Acceptance
         of Risk memorandum.




                                                                        35
                                                                                                                         APPENDIX III

 Rec.                                                                           Expected         Monetary   Resolved:a    Open or
Number           Corrective Action: Taken or Planned/Status                  Completion Date     Benefits   Yes or No     Closedb
         Management partially concurred with the 3rd bullet, associated           N/A              $0
         with logging data extracts and storing sensitive data on
         non-FDIC computers. DIT has concluded that there is no tool
         in the current market place that will log data extracts and erase
         them after 90 days. DIT has compensating controls designed
         to mitigate the risks. DIT has agreed to continue to look for
         and evaluate new solutions should they become available. The
         OIG considers this portion of the 3rd bullet closed.

         Regarding the second part of the 3rd bullet, DIT agreed that        November 30, 2007      $0
         RCN does provide the capability to download data to a user’s
         PC. However DIT is unaware of a viable business solution.
         DIT has made a business decision to accept this risk and DIT
         has agreed to complete an Acceptance of Risk memorandum.

         The OIG considers the first portion of this recommendation
         (encryption) closed. The remaining portions of this
         recommendation (system time-out and logging of
         extracts/downloads of sensitive data) will remain open
         pending receipt of DIT Acceptance of Risk memoranda. For
         tracking purposes, we will consider the overall
         recommendation to be open.

         Management concurred with the recommendation. Subject to
  7      NTEU negotiations, DOA will update form 2121.5 to require            March 31, 2008        $0         Yes         Open
         the teleworker to identify any sensitive data that will be used
         during telework.




                                                                        36
                                                                                                                                               APPENDIX III

 Rec.                                                                                   Expected            Monetary        Resolved:a          Open or
Number               Corrective Action: Taken or Planned/Status                      Completion Date        Benefits        Yes or No           Closedb
              Management concurred with the recommendation. The
      8       Pandemic Influenza Task Force has drafted a “Decision                    April 30, 2008           $0              Yes               Open
              Points” memorandum outlining key issues impacting the
              FDIC’s operations and personnel and submitted the
              memorandum to the Human Resources Committee for review.
              HRC review of the memorandum is a precondition of the Task
              Force’s finalization of the draft Pandemic Influenza
              Preparedness Plan.

      9       Management did not concur with this recommendation. DOA
              indicated that the time and effort necessary to evaluate the                  N/A                 $0              Yes              Closed
              cost/benefit of employees electronically submitting forms
              2121/05 and 2121/04 may not offset the proposed benefits.
              We accept management’s decision to not take action on this
              recommendation.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                  as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               37
